Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL


ANTHEM HEALTH PLANS OF NEW
HAMPSHIRE, INC., UNDERSTATED
   ITS MEDICARE SEGMENT
       PENSION ASSETS
    AS OF JANUARY 1, 2006


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                 Patrick J. Cogley
                                             Regional Inspector General

                                                      June 2013
                                                    A-07-13-00406
                           Office of Inspector General
                                            https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the health
and welfare of beneficiaries served by those programs. This statutory mission is carried out through a
nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with its
own audit resources or by overseeing audit work done by others. Audits examine the performance of HHS
programs and/or its grantees and contractors in carrying out their respective responsibilities and are intended to
provide independent assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.


Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, and
the public with timely, useful, and reliable information on significant issues. These evaluations focus on
preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of departmental
programs. To promote impact, OEI reports also present practical recommendations for improving program
operations.

Office of Investigations

The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department of
Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI often
lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In connection
with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other guidance to the
health care industry concerning the anti-kickback statute and other OIG enforcement authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                at https://oig.hhs.gov/

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Anthem Health Plans of New Hampshire, Inc., understated its Medicare segment
 pension assets by $24,363 as of January 1, 2006.


WHY WE DID THIS REVIEW

Medicare contractors are required to separately account for the Medicare segment pension plan
assets based on the requirements of their Medicare contract and Cost Accounting Standards 412
and 413. The Centers for Medicare & Medicaid Services (CMS) incorporated this language into
the Medicare contracts beginning with fiscal year 1988. Previous Office of Inspector General
reviews found that Medicare contractors did not always correctly identify and update the
segmented pension assets.

The objectives of this review were to determine whether Anthem Health Plans of New
Hampshire, Inc. (Anthem New Hampshire), complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when (1) implementing the prior audit
recommendation to decrease the Medicare segment pension assets as of December 31, 2002, and
(2) updating the Medicare segment’s pension assets from January 1, 2003, to January 1, 2006.

BACKGROUND

Anthem New Hampshire, a subsidiary of WellPoint, Inc. (WellPoint), administers Medicare
Part A operations under cost reimbursement contracts with CMS.

On October 27, 1999, Anthem Insurance Companies, Inc. (Anthem), acquired New Hampshire –
Vermont Health Service (NH – VT) and on December 31, 2002, Anthem merged the Non-
Contributory Retirement Program for Certain Employees of New Hampshire – Vermont Health
Service into the Anthem Cash Balance Pension Plan. On November 30, 2004, Anthem merged
with WellPoint Health Networks, Inc., and at that time, Anthem changed its name to WellPoint.
On January 1, 2006, the Anthem Cash Balance Pension Plan was renamed the WellPoint Cash
Balance Pension Plan. Also, effective November 17, 2006, WellPoint consolidated its
Government contracting segments into one segment, AdminaStar Federal, Inc. (AdminaStar),
which included the Anthem New Hampshire Medicare segment. In addition, as of that same
date, AdminaStar changed its corporate name to National Government Services, Inc. (NGS).
Thus, although we are addressing this report to NGS, we will associate the term Anthem New
Hampshire with our finding and recommendation regarding the update of the Anthem New
Hampshire Medicare segment’s pension assets from January 1, 2003, through January 1, 2006.

We performed a prior pension segmentation audit of Anthem New Hampshire (A-07-08-00269,
issued October 3, 2008), which brought the Anthem New Hampshire Medicare segment pension
assets to December 31, 2002. We recommended that Anthem New Hampshire decrease its
Medicare segment pension assets by $163,046 and, as a result, recognize $1,066,467 as the
Anthem New Hampshire Medicare segment pension assets as of December 31, 2002.



Anthem Health Plans of New Hampshire, Inc., Pension Segmentation (A-07-13-00406)                i
WHAT WE FOUND

Anthem New Hampshire implemented the prior audit recommendation to recognize $1,066,467
as the Medicare segment pension assets as of December 31, 2002. Regarding our second
objective, Anthem New Hampshire identified Medicare segment pension assets of $276,718 as
of January 1, 2006; however, we determined that the Medicare segment pension assets were
$301,081. Therefore, Anthem New Hampshire understated the Medicare segment pension assets
by $24,363. Anthem New Hampshire understated the Medicare segment pension assets because
it did not have controls to ensure that it calculated those assets in accordance with Federal
requirements and the Medicare contracts’ pension segmentation language when updating the
Medicare segment pension assets from January 1, 2003, to January 1, 2006.

WHAT WE RECOMMEND

We recommend that Anthem New Hampshire increase the Medicare segment pension assets as
of January 1, 2006, by $24,363, and recognize $301,081 as the Medicare segment pension assets.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NGS concurred with our findings and recommendation.
Anthem New Hampshire’s Medicare contract was transitioned to NGS effective November 17,
2006; therefore, NGS commented on our draft report.

NGS also made technical comments to enhance the accuracy and clarity of this report; we
accepted these suggestions and have incorporated them into this final report.




Anthem Health Plans of New Hampshire, Inc., Pension Segmentation (A-07-13-00406)                 ii
                                                    TABLE OF CONTENTS


INTRODUCTION ................................................................................................................... 1

           Why We Did This Review ........................................................................................... 1

           Objectives .................................................................................................................... 1

           Background .................................................................................................................. 1

           How We Conducted This Review................................................................................ 2

FINDINGS ............................................................................................................................... 2

           Prior Audit Recommendation ...................................................................................... 3

           Update of Medicare Segment Pension Assets ............................................................. 3
                 Contributions and Transferred Prepayment Credits Overstated ...................... 3
                 Net Transfers Understated ............................................................................... 3
                 Earnings, Net Expenses Understated ............................................................... 3

RECOMMENDATION ........................................................................................................... 4

AUDITEE COMMENTS......................................................................................................... 4

OFFICE OF INSPECTOR GENERAL RESPONSE .............................................................. 4

APPENDIXES

    A: Audit Scope and Methodology .................................................................................... 5

    B: Statement of Market Value of Pension Assets for the
       WellPoint Cash Balance Pension Plan for the Period
       January 1, 2003, to January 1, 2006 ............................................................................ 7

    C: Federal Requirements Related to Pension Segmentation ............................................ 9

    D: Auditee Comments .................................................................................................... 10




Anthem Health Plans of New Hampshire, Inc., Pension Segmentation (A-07-13-00406)                                                               iii
                                          INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are required to separately account for the Medicare segment pension plan
assets based on the requirements of their Medicare contract and Cost Accounting Standards
(CAS) 412 and 413. The Centers for Medicare & Medicaid Services (CMS) incorporated this
language into the Medicare contracts beginning with fiscal year 1988. Previous Office of
Inspector General reviews found that Medicare contractors did not always correctly identify and
update the segmented pension assets.

OBJECTIVES

Our objectives were to determine whether Anthem Health Plans of New Hampshire, Inc.
(Anthem New Hampshire), complied with Federal requirements and the Medicare contracts’
pension segmentation requirements when (1) implementing the prior audit recommendation to
decrease the Medicare segment pension assets as of December 31, 2002, and (2) updating the
Medicare segment’s pension assets from January 1, 2003, to January 1, 2006.

BACKGROUND

Anthem New Hampshire, a subsidiary of WellPoint, Inc. (WellPoint), administers Medicare Part
A operations under cost reimbursement contracts with CMS.

On October 27, 1999, Anthem Insurance Companies, Inc. (Anthem), acquired New Hampshire –
Vermont Health Service (NH – VT) and on December 31, 2002, Anthem merged the Non-
Contributory Retirement Program for Certain Employees of New Hampshire – Vermont Health
Service into the Anthem Cash Balance Pension Plan. On November 30, 2004, Anthem merged
with WellPoint Health Networks, Inc., and at that time, Anthem changed its name to WellPoint.
On January 1, 2006, the Anthem Cash Balance Pension Plan was renamed the WellPoint Cash
Balance Pension Plan. Also, effective November 17, 2006, WellPoint consolidated its
Government contracting segments into one segment, AdminaStar Federal, Inc. (AdminaStar),
which included the Anthem New Hampshire Medicare segment. In addition, as of that same
date, AdminaStar changed its corporate name to National Government Services, Inc. (NGS).
Thus, although we are addressing this report to NGS, we will associate the term Anthem New
Hampshire with our finding and recommendation regarding the update of the Anthem New
Hampshire Medicare segment’s pension assets from January 1, 2003, through January 1, 2006.

We performed a prior pension segmentation audit of Anthem New Hampshire (A-07-08-00269,
issued October 3, 2008), which brought the Anthem New Hampshire Medicare segment pension
assets to December 31, 2002. We recommended that Anthem New Hampshire decrease its
Medicare segment pension assets by $163,046 and, as a result, recognize $1,066,467 as the
Anthem New Hampshire Medicare segment pension assets as of December 31, 2002.




Anthem Health Plans of New Hampshire, Inc., Pension Segmentation (A-07-13-00406)                  1
HOW WE CONDUCTED THIS REVIEW

We reviewed Anthem New Hampshire’s implementation of the prior audit recommendation;
identification of its Medicare segment; and update of the Medicare segment assets from
January 1, 2003, to January 1, 2006.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                               FINDINGS

Anthem New Hampshire implemented the prior audit recommendation to recognize $1,066,467
as the Medicare segment pension assets as of December 31, 2002. Regarding our second
objective, Anthem New Hampshire identified Medicare segment pension assets of $276,718 as
of January 1, 2006; however, we determined that the Medicare segment pension assets were
$301,081. Therefore, Anthem New Hampshire understated the Medicare segment pension assets
by $24,363. Anthem New Hampshire understated the Medicare segment pension assets because
it did not have controls to ensure that it calculated those assets in accordance with Federal
requirements and the Medicare contracts’ pension segmentation language when updating the
Medicare segment pension assets from January 1, 2003, to January 1, 2006.

Appendix B presents details of the WellPoint Cash Balance Pension Plan assets from January 1,
2003, to January 1, 2006, as determined during our audit. Table 1 below summarizes the audit
adjustments required to update the Medicare segment pension assets in accordance with Federal
requirements.

                      Table 1: Summary of Audit Adjustments
                                                           Per Anthem
                                                               New
                                              Per Audit     Hampshire Difference
Prior Audit Recommendation                     $1,066,467    $1,066,467       $0

Update of Medicare Segment Assets
 Contributions and Prepayment Credits                              687,017             694,533    (7,516)
 Benefit Payments                                              (1,659,402)         (1,659,402)          0
 Net Transfers                                                   (188,711)           (186,512)    (2,199)
 Earnings, Net Expenses                                            395,710             361,632     34,078
Understatement of Medicare Segment Assets                                                        $24,363



Anthem Health Plans of New Hampshire, Inc., Pension Segmentation (A-07-13-00406)                            2
PRIOR AUDIT RECOMMENDATION

Anthem New Hampshire implemented the prior audit recommendation (A-07-08-00269) which
recommended that New Hampshire decrease its Medicare segment pension assets by $163,046
and, as a result, recognize $1,066,467 of Medicare segment pension assets as of December 31,
2002.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

The Medicare contract requires that Medicare contractors update the Medicare segment pension
assets yearly in accordance with the CAS. The CAS requires that the asset base be adjusted by
contributions, permitted unfunded accruals, income, benefit payments, and expenses.

For details on the Federal requirements and the Medicare contract, see Appendix C.

The following are our findings regarding the update of the Anthem New Hampshire Medicare
segment pension assets from January 1, 2003, to January 1, 2006.

Contributions and Transferred Prepayment Credits Overstated

The audited contributions and transferred prepayment credits are based on the assignable pension
costs. In compliance with the CAS, we applied prepayment credits first to current-year
assignable pension costs (because the credits were available at the beginning of the year) and
then updated any remaining credits with interest to the next measurement (valuation) date. We
then allocated contributions to assigned pension costs, as needed, as of the date of deposit. For
details on these Federal requirements, see Appendix C.

Anthem New Hampshire overstated contributions and transferred prepayment credits by $7,516
for the Medicare segment. The overstatement occurred primarily because of differences in the
asset base used to compute the assignable pension costs, upon which the contributions and
prepayment credits were based. As a result, Anthem New Hampshire overstated the Medicare
segment pension assets by $7,516.

Net Transfers Understated

Anthem New Hampshire understated net transfers out of the Medicare segment by $2,199. The
understatement occurred primarily because Anthem New Hampshire incorrectly identified the
participants who transferred out of the Medicare segment. This understatement of the net
transfer adjustment resulted in an overstatement of the Medicare segment pension assets by
$2,199.

Earnings, Net Expenses Understated

Anthem New Hampshire understated investment earnings, less administrative expenses, by
$34,078 for the Medicare segment, primarily because its 2003 weighted asset value (WAV)
calculation incorrectly included the assets related to the Anthem Southeast merger that occurred


Anthem Health Plans of New Hampshire, Inc., Pension Segmentation (A-07-13-00406)                    3
on December 31, 2003. In addition, Anthem New Hampshire used incorrect contributions and
transferred prepayment credits and net transfers (discussed above), to develop the Medicare
segment pension asset base. In our audited update, we allocated earnings, net expenses based on
the applicable CAS requirements. For details on these Federal requirements, see Appendix C.

                                       RECOMMENDATION

We recommend that Anthem New Hampshire increase the Medicare segment pension assets as
of January 1, 2006, by $24,363, and recognize $301,081 as the Medicare segment pension assets.

                                      AUDITEE COMMENTS

In written comments on our draft report, NGS concurred with our findings and recommendation.
Anthem New Hampshire’s Medicare contract was transitioned to NGS effective November 17,
2006; therefore, NGS commented on our draft report.

NGS also made technical comments to enhance the accuracy and clarity of this report. These
comments clarified information pertaining to entity and pension plan names as well as the
effective date of the Government contract segments’ consolidation.

NGS’s comments are included in their entirety as Appendix D.

                       OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NGS’s comments, we accepted the technical comments and have incorporated
them into this final report.




Anthem Health Plans of New Hampshire, Inc., Pension Segmentation (A-07-13-00406)                  4
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

Scope

We reviewed Anthem New Hampshire’s implementation of the prior audit recommendation;
identification of its Medicare segment; and update of the Medicare segment assets from
January 1, 2003, to January 1, 2006.

Achieving our objective did not require us to review Anthem New Hampshire’s overall internal
control structure. We reviewed controls relating to the identification of the Medicare segment,
the update of the Medicare segment’s assets, and the Medicare segment’s final assets and
liabilities to ensure adherence to the Medicare contracts, CAS 412, and CAS 413.

We completed our audit work in November and December 2012.

Methodology

To accomplish our objectives, we took the following steps:

    •    We reviewed the portions of the Federal Acquisition Regulation, CAS, and the
         Medicare contracts applicable to this audit.

    •    We reviewed the annual actuarial valuation reports prepared by WellPoint’s actuarial
         consulting firms, which included the pension plan’s assets, liabilities, normal costs,
         contributions, benefit payments, investment earnings, and administrative expenses. We
         used this information to calculate the Anthem New Hampshire Medicare segment
         assets.

    •    We obtained and reviewed the pension plan documents and Department of
         Labor/Internal Revenue Service Forms 5500 used in calculating the Medicare segment
         assets.

    •    We interviewed WellPoint staff responsible for identifying the Medicare segment to
         determine whether the segment was properly identified in accordance with the Medicare
         contracts.

    •    We reviewed WellPoint’s accounting records to verify the segment identification and
         benefit payments made to the Medicare segment.

    •    We reviewed the prior segmentation audit performed at NH – VT (A-07-08-00269) to
         determine the beginning market value of assets.

    •    We provided the CMS Office of the Actuary with the actuarial information necessary
         for it to calculate the Anthem New Hampshire Medicare segment pension assets from
         January 1, 2003, to January 1, 2006.


Anthem Health Plans of New Hampshire, Inc., Pension Segmentation (A-07-13-00406)                  5
    •    We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with the following audits and used the information
obtained during these audits during this review:

    •   Anthem Health Plans of Maine, Inc., Overstated Its Medicare Segment Pension Assets as
        of January 1, 2006 (A-07-13-00404),

    •   Anthem Health Plans of Maine, Inc., Did Not Claim Some Allowable Medicare Pension
        Costs for Fiscal Years 2003 Through 2005 (A-07-13-00405),

    •   Anthem Health Plans of New Hampshire, Inc., Did Not Claim Some Allowable Medicare
        Pension Costs for Fiscal Years 2003 Through 2005 (A-07-13-00407),

    •   National Government Services, Inc., Understated Its Medicare Segment Pension Assets
        as of January 1, 2010 (A-07-13-00408), and

    •   National Government Services, Inc., Did Not Claim Some Allowable Medicare Pension
        Costs for Fiscal Years 2003 Through 2006 (A-07-13-00409).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Anthem Health Plans of New Hampshire, Inc., Pension Segmentation (A-07-13-00406)                   6
                                          APPENDIX B: STATEMENT OF MARKET VALUE OF PENSION ASSETS
                                               FOR THE WELLPOINT CASH BALANCE PENSION PLAN
                                               FOR THE PERIOD JANUARY 1, 2003, TO JANUARY 1, 2006

                                                                                                      Anthem                                      Anthem
                                                                                   “Other”         New Hampshire                                   Maine
                  Description                           Total Company              Segments           Segment          NGS      Segment           Segment

     Assets January 1, 2003                     1/          $615,266,988           $587,811,989         $1,066,467           $21,594,429             $4,794,103

     Prepayment Credits                         2/                     0             (4,564,241)          243,725             3,704,635                615,881
     Contributions                              3/            65,000,000             65,000,000                 0                     0                      0
     Other Transactions                         4/           187,077,099            187,077,099                 0                     0                      0
     Earnings, Net Expenses                     5/           130,802,578            124,178,263           223,306             5,256,726              1,144,283
     Benefit Payments                           6/           (61,198,247)           (58,130,416)         (565,058)           (2,214,866)              (287,907)
     Transfers                                  7/                     0              1,757,989                32            (1,568,631)              (189,390)

     Assets January 1, 2004                                $936,948,418            $903,130,683          $968,472           $26,772,293             $6,076,970

     Prepayment Credits                                                0             (4,466,299)          236,302             3,600,628                629,369
     Contributions                                            10,000,000             10,000,000                 0                     0                      0
     Other Transactions                                                0                      0                 0                     0                      0
     Earnings, Net Expenses                                   96,892,114             93,048,973           121,928             3,074,529                646,684
     Benefit Payments                                        (71,819,385)           (66,927,468)         (135,543)           (3,404,623)            (1,351,751)
     Transfers                                                         0              2,384,375          (186,544)             (954,014)            (1,243,817)

     Assets January 1, 2005                                $972,021,147            $937,170,264        $1,004,615           $29,088,813             $4,757,455

     Prepayment Credits                                                0             (4,154,400)          206,990             3,276,707                670,703
     Contributions                                            46,500,000             46,500,000                 0                     0                      0
     Other Transactions                                                0                      0                 0                     0                      0
     Earnings, Net Expenses                                   64,686,123             62,144,538            50,476             2,161,997                329,112
     Benefit Payments                                        (90,620,644)           (86,346,471)         (958,801)           (2,007,245)            (1,308,127)
     Transfers                                                         0              1,434,727            (2,199)             (971,749)              (460,779)

     Assets January 1, 2006                                $992,586,626            $956,748,658          $301,081           $31,548,523             $3,988,364
     Per Anthem New Hampshire                   8/          992,586,626             957,532,240           276,718            30,305,489              4,472,179
     Asset Variance                             9/                    0                 783,582           (24,363)           (1,243,034)               483,815


ENDNOTES

  1/ We determined the Anthem New Hampshire Medicare segment pension assets as of January 1, 2003, based on our prior segmentation audit of NH - VT (A-
     07-08-00269). The NH - VT pension plan merged into the Anthem Cash Balance Pension Plan effective December 31, 2002. We determined the Anthem
     Maine and NGS Medicare segment pension assets as of January 1, 2003, based on our prior segmentation audit of Anthem Insurance Companies, Inc. (A-
     07-04-00181). The amounts shown for the “Other” segment represent the difference between the Total Company and the Medicare segment. All pension
     assets are shown at market value.

  2/ Prepayment credits represent funds available to satisfy future funding requirements and are applied to future funding requirements before current year
     contributions in order to avoid incurring unallowable interest. Prepayment credits are transferred to the Medicare segment as needed to cover funding
     requirements.

  3/ We obtained Total Company contribution amounts from the actuarial valuation reports and Department of Labor/Internal Revenue Service Forms 5500.
     We allocated Total Company contributions to the Medicare segment based on the ratio of the Medicare segment funding target divided by the Total
     Company funding target. Contributions in excess of the funding targets were treated as prepayment credits and accounted for in the “Other” segment until
     needed to fund pension costs in the future.

  4/ The “Other” transactions represent the merger of the Anthem Southeast Plan into WellPoint’s Cash Balance Plan on December 31, 2003. We obtained the
     Anthem Southeast Plan pension asset amount as of December 31, 2003, from WellPoint’s 2004 actuarial valuation report. These “Other” transactions did
     not impact the Medicare segment pension assets.

  5/ We obtained net investment earnings from the actuarial valuation reports. We allocated net investment earnings based on the ratio of the segments’ WAV
     of assets to Total Company WAV of assets as required by the CAS.

  6/ We based the Medicare segment’s benefit payments on actual payments to Medicare retirees. We obtained the benefit payments from documents provided
     by WellPoint.

Anthem Health Plans of New Hampshire, Inc., Pension Segmentation (A-07-13-00406)                                                                              7
  7/ We identified participant transfers between segments by comparing valuation data files provided by WellPoint. Asset transfers were equal to the actuarial
     liability determined under the accrued benefit cost method in accordance with the CAS.

  8/ We obtained total asset amounts from documents prepared by WellPoint’s actuarial consulting firm.

  9/ The asset variance represents the difference between our calculation of Medicare segment pension assets and WellPoint’s calculation of the Medicare
     segment pension assets.




Anthem Health Plans of New Hampshire, Inc., Pension Segmentation (A-07-13-00406)                                                                                 8
          APPENDIX C: FEDERAL REQUIREMENTS RELATED TO PENSION
                             SEGMENTATION

Federal Regulations

Federal regulations (CAS 412.50(a)(4)) require that contributions in excess of the pension cost
assigned to the period be recognized as prepayment credits and accumulated at the assumed
valuation interest rate until applied to future period costs. Prepayment credits that have not been
applied to fund pension costs are excluded from the value of assets used to compute pension
costs.

Federal regulations (CAS 413.50(c)(7)) require that the asset base be adjusted by contributions,
permitted unfunded accruals, income, benefit payments, and expenses. For plan years beginning
after March 30, 1995, the CAS requires investment income and expenses to be allocated among
segments based on the ratio of the segment’s WAV of assets to Total Company WAV of assets.

Federal regulations (CAS 413.50(c)(8)) require an adjustment to be made for transfers
(participants who enter or leave the segment) if the transfers materially affect the segment’s ratio
of pension plan assets to actuarial accrued liabilities.

Medicare Contracts

The Medicare contracts identify a Medicare segment as:

        … any organizational component of the contractor, such as a division,
        department, or other similar subdivision, having a significant degree of
        responsibility and accountability for the Medicare contract/agreement, in which:

            1. The majority of the salary dollars is allocated to the Medicare
               agreement/contract; or,

            2. Less than a majority of the salary dollars are charged to the Medicare
               agreement/contract, and these salary dollars represent 40% or more of the
               total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).”




Anthem Health Plans of New Hampshire, Inc., Pension Segmentation (A-07-13-00406)                       9
                                      APPENDIX D: AUDITEE COMMENTS




          ~National c~vernment
           }II{"        serv1ces.
                                                                                                   MEDICARE
             8115 Knue Road
             Indianapolis, IN 46250

             www.wellpoint.com/ngs



             May 14,2013

             Mr. PatrickJ. Cogley
             Regional Inspector General for Audit Services
             Office of Audit Services, Region VII
             601 East 12<h Street, Room 0429
             Kansas City, Missouri 64106

             Reference: Report Number A-07-13-00406

             Dear Mr. Cogley:

             We have received the draft audit report from the Inspector General entitled "Anthem Health
             Plans of New Hampshire, Inc. Understated Its Medicare Segment Pension Assets as of January
             1, 2006" and thank you for the opportunity to respond.


             National Government Services, Inc. (NGS) concurs with the finding and recommendation
             outlined in the report and will make the appropriate adjustments to Medicare segment pension
             assets as of January 1, 2006.

             In our review of the report, the following proposed revisions would enhance the accuracy and
             clarity of the report:

                          •   In the "Executive Summary" section (page i) within the "Background" caption
                              and in the "Introduction" section (page 1) within the "Background" caption,
                              please replace the second paragraph with the following which accurately
                              describes the organization:

                          •   On October 27, 1999, Anthem Insurance Companies, Inc. (Anthem), acquired
                              New Hampshire-Vermont Health Service (NH-VI) and on December 31, 2002
                              Anthem merged the Non-Contributory Retirement Program for Certain
                              Employees of New Hampshire-Vermont Health Serv ice ("Prior New Hampshire
                              Plan") into the Anthem Cash Balance Pension Plan. On N ovember 30, 2004,
                              Anthem merged with WeliPoint Health Networks, Inc. and changed its name to
                              WeliPoint, Inc. On January 1, 2006, the Anthem Cash Balance Pension Plan was
                              renamed the WeliPoint Cash Balance Pension Plan. Also, effective November 17,
                              2006, WeliPoint consolidated its Government contracting segments into one
                              segment, AdminaStar Federal, Inc. (AdminaStar), which include the Anthem




Anthem Health Plans of New Hampshire, Inc., Pension Segmentation (A-07-13-00406)                              10
          ....LNational G~vernme--.:it
           )II{"     serv1ces.
                                                                                                       MEDICARE
            8115 Knue Road
            Indianapolis, IN 46250

             W>NVV.wellpoint.com/ngs



             May 14,2013
             Page 2

                              New Hampshire Medicare segment. In addition as of that same date,
                              AdminaStar changed its corporate name to National Government Services, Inc.
                              (NGS). Thus although we are addressing this report toNGS, we will associate
                              the term Anthem New Hampshire with our finding and recommendation
                              regarding the update of the Anthem New Hampshire Medicare segment's
                              pension assets from January 1, 2003, through January 1, 2006.

                          •   On page iii of the Table of Contents, item B under Appendixes should read:

                              Statement of Market Value of Pension Assets for the WellPoint Cash Balance
                              Pension Plan for the Period January 1, 2003, to January 1, 2006

                          •   On page 2, second paragraph under "Findings", in the first line capitalize
                              "Pension Plan".

            We appreciate the opportunity to respond to this draft report. If you have any further
            questions, I can be reached at 414-459-5606 or via email at todd.reiger@wellpoint.com.

            Sincerely,
                                          Digitally signed by
                                          todd.reiger@wellpoint.com
                                          DN: cn=todd.reiger@wellpoint.com
                                          Date: 2013.05.14 09:04:19 -04'00'
            Todd W.l{eiger, CPA
            Medicare Chief Financial Officer
            National Government Services, Inc.

            CC:               Michael Kapp - NGS
                              Dave Marshall- NGS
                              Jeff Hannah - NGS
                              Jim Maguire - NGS
                              Matt Hughes - NGS
                              Jim Elmore - NGS
                              Joanne Imel- WellPoint
                              Marilyn Bryan- CMS
                              Jenenne Tambke- OIG




Anthem Health Plans of New Hampshire, Inc., Pension Segmentation (A-07-13-00406)                                  11
